audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs,
	Bureau of Justice Assistance Grant to the Tampa, Florida, Police Department
GR-40-99-014
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Tampa, Florida, Police Department (grantee).  The grantee received a $2 million grant to hire or rehire 30 sworn officers under the Police Hiring Supplement program.  The purpose of the grant was to enhance community policing efforts. 

	In brief, the grantee violated some of the grant conditions.  Specifically, it:

Claimed and was reimbursed $119,454 in salaries and fringe benefits not authorized by OJP.
	 	
	Claimed and was reimbursed $171,980 that should have been provided from local funds.
  
	Claimed and was reimbursed $1,406 for which it could not provide supporting documentation.	

	Claimed and was reimbursed $290,622 after the grant expired.
	
	Incorrectly reported total program outlays and the Federal share of outlays to OJP.
   	
	Failed to submit or submitted late, several monitoring reports to OJP.	 	
	
These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.